U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 28, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Palacios-Solis v. United States, No. 19-1195
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 31,
2020. The government’s response is now due, after one extension, on June 3, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including June 8, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1195
PALACIOS-SOLIS, ADALBERTO F.
USA

VINCENT GREGORY LEVY
HOLWELL SHUSTER & GOLDBERG, LLP
425 LEXINGTON AVENUE
14TH FLOOR
NEW YORK, NY 10017
646-837-5151
VLEVY@HSGLLP.COM

